1a
APPENDIX A
In the
United States Court of Appeals
For the Seventh Circuit
-----------------------------------------------------------------------

No. 20-1525
NICOLE K., by next friend LINDA R., et al.,
Plaintiffs-Appellants,
v.
TERRY J. STIGDON, Director of the Indiana Department
of Child Services, et al.,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:19-cv-01521-JPH-MJD –
James Patrick Hanlon, Judge.
-----------------------------------------------------------------------

ARGUED OCTOBER 26, 2020 – DECIDED MARCH 5, 2021
-----------------------------------------------------------------------

Before EASTERBROOK, ROVNER, and WOOD, Circuit
Judges.
EASTERBROOK, Circuit Judge. When officials in Indiana believe that children may be suffering from
abuse or neglect, they initiate a process that they call
CHINS, for Child in Need of Services. The plaintiffs in
this suit are children (represented by next friends)

2a
about whom CHINS proceedings are under way. Indiana automatically appoints lawyers to represent the
parents in CHINS proceedings but does not do the
same for children. Plaintiffs contend that the Constitution entitles each of them to appointed counsel at
public expense. In other words, they seek a civil parallel to the holding in Gideon v. Wainwright, 372 U.S. 335
(1963), that all criminal defendants are entitled to
counsel when imprisonment is in prospect. But the district court declined to resolve this contention, ruling
that Younger v. Harris, 401 U.S. 37 (1971), requires abstention. 2020 U.S. Dist. LEXIS 36844 (S.D. Ind. Mar.
3, 2020).
When Younger applies, participants must raise
their federal arguments in the state proceeding, with
review by the Supreme Court of the United States if
the state judiciary ultimately rejects the constitutional
arguments. Plaintiffs contend on appeal that they are
not the kind of parties, and CHINS proceedings are not
the sort of “quasi-criminal” litigation (their language),
to which they believe Younger is limited.
Moore v. Sims, 442 U.S. 415 (1979), holds that
Younger applies to some kinds of child-welfare proceedings, and Milchtein v. Chisholm, 880 F.3d 895 (7th Cir.
2018), adds that child-custody proceedings are among
those governed by Younger. But, as plaintiffs see
things, CHINS proceedings do not always entail the
same state interests as child-custody matters. The
state’s brief describes the CHINS process, showing
that it can span a variety of situations and correspondingly a wide range of state interests:

3a
The State’s intervention begins with a report
of suspected child abuse or neglect. Upon
receipt of such a report, the Indiana Department of Child Services initiates an assessment of the allegation. See Ind. Code §§ 3133-7-1 et seq., 31-33-8-1 et seq. If the Department is able to substantiate the allegation
of abuse or neglect, it may then initiate a
CHINS proceeding by filing a CHINS petition
on the child’s behalf. See Ind. Code ch. 31-349 et seq.
The trial court must hold an initial hearing
within ten days of the Department’s filing of a
CHINS petition, Ind. Code §31-34-102(a), earlier (within two days) if the child has been removed from the home upon the Department’s
assessment of the reported abuse or neglect.
See Ind. Code §§ 31-34-5-1(a), 31-34-10-2(j).
During the initial hearing, the parents are
asked to admit or deny the allegations in the
petition: If the parents deny the allegations,
then the court must generally hold a fact-finding hearing within 60 days, Ind. Code §31-3411-1, and if after that hearing the court determines that the child is a CHINS, it must then
schedule a dispositional hearing to occur
within 30 days of the CHINS determination.
Ind. Code §§ 31-34-11-2, 31-34-19-1(a). But if
the parents admit the allegations at the initial hearing, the court enters judgment and
schedules a dispositional hearing. See Ind.
Code §§ 31-34-10-8, 31-34-10-9(a), (c).
During the dispositional hearing, the court considers appropriate placement and treatment

4a
for the child and then enters a dispositional
decree. See Ind. Code §31-34-19-1, ch. 31-3420 et seq. The court’s dispositional decree not
only provides for the child’s placement and
services, but in most cases it also spells out
the services in which the parent must engage
to remedy the conditions that led to the
CHINS adjudication. See Ind. Code §§ 313420-1, 31-34-21-5.5; cf. Ind. Code §31-34-215.6 (providing for narrow circumstances under which services are not required).
After the court enters the dispositional decree, it periodically reviews the case—at least
once every six months—to ensure that the
child’s case plan, services, and placement continue to serve the child’s best interests. Ind.
Code §§ 31-34-21-2, 31-34-21-4.5, 31-34-215(a). The court takes into account a host of
considerations, including whether the child
requires additional services or counseling and
the extent to which the child’s parent, guardian, or custodian has enhanced the ability to
fulfill parental obligations and has cooperated
with reunification efforts. See Ind. Code §3134-21-5(b). In the course of its review, the
court also considers whether to prepare or implement a permanency plan for the child. Ind.
Code §31-34-21-5(b)(15).
CHINS cases remain open until “the objectives of the dispositional decree have been
met,” Ind. Code §31-34-21-11, which can mean
several things, such as reunification or termination of parental rights and adoption, among
others. If reunification is not a viable option,

5a
the State may initiate a termination of parental rights (TPR) proceeding. See, e.g., Ind.
Code §§ 31-34-21-7.5, 3135-2-1. The CHINS
case continues until the child achieves permanency, which often does not occur until after
the TPR proceeding (including any appeals)
concludes. See Ind. Code §§ 3119-11-6; 31-3421-11.
In a CHINS or TPR proceeding, state law entitles the child’s parents to counsel as a matter of right, while the child does not have such
a statutory entitlement, see Ind. Code §§ 3132-4-1, 31-34-4-6(a)(2)(A)—though the state
trial court does have discretion to appoint
counsel for the child, see Ind. Code §31-32-42(b), and the Department can request appointment of counsel for the child as well. But
in practice, trial courts rarely have occasion to
consider whether to appoint counsel to children in CHINS cases.
The child’s interests . . . are neither unrepresented nor disregarded. In addition to the
State’s parens patriae protection, most children are represented by a Guardian ad Litem
(GAL), a Court Appointed Special Advocate
(CASA), or both. See Indiana Youth Institute,
2019 Indiana Kids Count Data Book 23
(2019) (“In 2017, 29,630 Hoosier children
were designated as Children in Need of Services. . . . In 2017, 4,273 volunteers spoke for
abused and neglected Hoosier children in
30,480 CHINS cases.”). Indeed, one of the
first things a court does upon the filing of a
CHINS petition is to determine whether

6a
appointment of such an advocate is warranted. Ind. Code §31-34-10-3. State law requires the court to appoint a GAL or CASA in
abuse and neglect cases, id., but courts may
appoint a GAL or CASA even if not required,
see Ind. Code §31-32-3-1; Gibbs v. Potter, 77
N.E. 942, 943 (Ind. 1906).
Indiana Br. 3–6 (cleaned up).
The variety of goals and outcomes in this kind of
proceeding makes us reluctant to decide categorically
whether Younger does, or does not, apply across the
board. Ten children are plaintiffs, and Indiana does not
contend that all of them have been separated from
their parents or are at risk of that outcome.
We also conclude that it does not matter whether
Younger applies to all CHINS proceedings. Although,
when Younger applies, abstention is compulsory, a federal court has discretion to put any federal proceeding
on hold while a state works its way through an administrative process that was under way before the
federal suit began. See, e.g., Courthouse News Service
v. Brown, 908 F.3d 1063 (7th Cir. 2018). Principles of
comity entitle the states to make their own decisions,
on federal issues as well as state issues, unless there
is some urgent need for federal intervention. This is
summed up in the rule that there is no such thing as
federal-defense removal. See, e.g., Chicago v. Comcast
Cable Holdings, L.L.C., 384 F.3d 901, 904 (7th Cir.
2004). Many a federal issue will arise in the resolution
of a proceeding under state law, but the norm is that
the state tribunal handles the entire proceeding, with

7a
review of the federal question (if one matters in the
end) by the Supreme Court rather than a federal district judge.
Withholding peremptory federal adjudication of a
single issue in the state proceedings is the appropriate
disposition. Indiana represents, and plaintiffs do not
deny, that state judges have the authority to appoint
counsel for children. What’s more, most children have
adult representatives—either guardians ad litem or
special advocates. Some of those adult representatives
may be lawyers; others may engage counsel to advise
them how best to represent the children’s interests.
Unless there is a “civil Gideon” principle requiring
counsel in every case, the state’s procedures suffice—
at least in the sense that they permit an adult to argue,
to the state judiciary, that a lawyer is necessary in a
particular case.
Gideon overruled a series of cases, exemplified by
Betts v. Brady, 316 U.S. 455 (1942), that abjured any
rule about whether counsel is necessary in criminal
prosecutions. Betts held that courts must decide
whether each particular defendant could represent his
own interests adequately. The Justices stated in Gideon that the program of Betts had failed because judges
just can’t tell, even with the benefit of hindsight, what
a lawyer might have done had one been appointed. The
only reliable solution, Gideon held, is to appoint
counsel all the time. This understanding lies behind
plaintiffs’ argument that every child in every CHINS
proceeding is entitled to an appointed lawyer.

8a
But the Justices have not taken Gideon as far as
they might. They treat it as a decision about the scope
of the Counsel Clause in the Sixth Amendment rather
than the Due Process Clause in the Fifth. They have
not extended Gideon to courts martial, see Middendorf
v. Henry, 425 U.S. 25 (1976), or to civilian misdemeanor
criminal prosecutions that do not end in sentences of
imprisonment, see Nichols v. United States, 511 U.S.
738 (1994). Revocation of probation or supervised release does not entail an automatic right to counsel,
even though the consequences may include imprisonment. See Gagnon v. Scarpelli, 411 U.S. 778 (1973). In
these and other situations, the Justices have used the
case-by-case approach of Betts.
The situations the Justices have approached one
dispute at a time under the Due Process Clause include civil child-welfare proceedings. So, for example, a
parent is not automatically entitled to counsel in a
civil-contempt proceeding arising out of a child-welfare
adjudication, even though the remedies for defiance to
a court may include imprisonment until the recalcitrant litigant obeys. See Turner v. Rogers, 564 U.S. 431
(2011). And in M.L.B. v. S.L.J., 519 U.S. 102, 116–19
(1996), while analogizing child-custody-termination
proceedings to criminal prosecutions for the purpose of
determining whether a state may condition appeal on
ability to prepay the cost of a transcript (the Due Process Clause bars this, the Court held), the Justices reaffirmed the holding of Lassiter v. Department of Social
Services, 452 U.S. 18 (1981), that the Constitution does
not automatically entitle parents to appointed counsel

9a
before a court terminates parental rights. No decision
since M.L.B. has even hinted at restiveness about the
holding of Lassiter. In other words, there is no “civil
Gideon” principle for child-custody or child-welfare
proceedings.
Because children are not automatically entitled to
lawyers—as opposed to the sort of adult assistance
that Indiana routinely provides—it would be inappropriate for a federal court to resolve the appointmentof-counsel question in any of the ten plaintiffs’ state
proceedings. A state judge may appoint counsel, if that
seems necessary, or may explain why that step is unnecessary under the circumstances. In the absence of
a “civil Gideon” analog, that question is a proper part
of the state proceeding, subject (as all federal issues
are) to the possibility of review by the Supreme Court
once a final decision has been rendered.
AFFIRMED

10a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
NICOLE K. by next friend
Linda R.; for themselves
and those similarly situated,
ABIGAIL R. by next friend
Nancy B.; for themselves
and those similarly situated,
ANNA C. by next friend Jessie
R.; for themselves and those
similarly situated„ ROMAN
S. by next friend Linda R.; for
themselves and those similarly
situated, LILY R. by next
friend Nancy B.; for themselves and those similarly
situated, RACHEL H. by
next friend Nancy B.; for
themselves and those similarly
situated, BRIAN P. by next
friend Jessie R.; for themselves
and those similarly situated,
AMELIA P. by next friend
Jessie R.; for themselves
and those similarly situated,
ALEXA C. by next friend
Jessie R.; for themselves and
those similarly situated,
ZACHARY H. by next friend

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

11a
Jessie R.; for themselves and
those similarly situated,
Plaintiffs,
v.
TERRY J. STIGDON Director
of the Indiana Department of
Child Services in her official
capacity, MARILYN A.
MOORES Honorable, Marion
Superior Court Judge, in her
official capacity, MARK A.
JONES Honorable, Marion
Superior Court Judge, in his
official capacity, THOMAS P.
STEFANIAK, JR. Honorable,
Lake Superior Court Jude, in
his official capacity, MARSHA
OWEN HOWSER Honorable,
Scott Superior Court Judge,
in her official capacity,
JASON M. MOUNT
Honorable, Scott Circuit Court
Judge, in his official capacity,
Defendants.

)
)
)
)
) No. 1: 19-cv-01521) JPH-MJD
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER GRANTING DEFENDANTS’
MOTION TO DISMISS
(Filed Mar. 3, 2020)
This case was brought by several minors who are
involved in Child in Need of Services (“CHINS”) proceedings pending in state courts in Marion, Scott, and
Lake counties, Indiana. Plaintiffs allege that because

12a
they were not appointed counsel to represent them in
their CHINS cases, the Director of the Indiana Department of Child Services and state judges in those counties caused the deprivation of their liberty interests
without due process. See dkt. 40. Defendants have filed
a motion to dismiss the complaint for lack of subjectmatter jurisdiction and failure to state a claim upon
which relief can be granted. Dkt. [59]. Important state
interests presented in CHINS proceedings require the
Court to abstain under the doctrine of Younger v. Harris, so Defendants’ motion is GRANTED.
I.
Facts and Background
Because Defendants have moved for dismissal under Rule 12(b)(1) and 12(b)(6), the Court accepts and
recites “the well-pleaded facts in the complaint as
true.” McCauley v. City of Chicago, 671 F.3d 611, 616
(7th Cir. 2011); Scott Air Force Base Props., LLC v. Cty.
of St. Clair, Ill., 548 F.3d 516, 519 (7th Cir. 2008).
Plaintiffs are ten children involved in Indiana
CHINS proceedings. N.K. and R.S. live with a foster
parent in Marion County and have been designated
CHINS by the Marion Superior Court. Dkt. 40 at 13.
A.R., L.R., and R.H. live with a foster parent in Lake
County and have been designated CHINS by the Lake
Superior Court. Id. at 15. An.C., B.P., A.P., Al.C., and
Z.H. are in foster care in Scott County and have been
designated CHINS by the Scott Superior Court. Id. at
18.

13a
Plaintiffs are not represented by counsel in their
pending CHINS proceedings. Id. at 14, 17, 21. Under
Indiana law, appointment of counsel for children in
CHINS proceedings is discretionary. Id. at 26 (citing
Ind. Code § 31-32-4-2(b)). The Indiana Department of
Child Services (“DCS”) can request that counsel be appointed, but in practice it does not do so. Id. at 27. And
courts presiding over CHINS proceedings rarely appoint counsel. Id. at 29–32. In the Marion Superior
Court, Lake Superior Court, and Scott Superior and
Circuit Courts, counsel is appointed for children in
CHINS proceedings in less than 10% of cases. Id.
Plaintiffs have sued Terry Stigdon, the Director of
DCS; Marilyn Moores and Mark Jones, judges and coheads of the Marion Superior Court Juvenile Division;
Thomas Stefaniak, Jr., judge of the Lake Superior
Court Juvenile Division; Marsha Howser, judge of the
Scott Superior Court; and Jason Mount, judge of the
Scott Circuit Court. Plaintiffs allege that Defendants
violated the Fourteenth Amendment equal protection
and due process rights “of children in dependency proceedings by failing to provide counsel to those children.” Id. at 4, 34–35. They seek declaratory and
injunctive relief, including: (1) a declaration that Ind.
Code § 31-32-4-2(b) is unconstitutional on its face and
as applied to Plaintiffs; (2) a declaration that Defendants have unconstitutionally caused Plaintiffs to have
no attorney representation in CHINS and termination
of parental rights proceedings; and (3) an injunction
requiring the appointment of counsel to Plaintiffs. Id.
at 36.

14a
Defendants have filed a motion to dismiss this
case for lack of jurisdiction and for failure to state a
claim upon which relief can be granted, arguing that
this case should be dismissed for several reasons, including the Younger abstention doctrine. Dkt. 59.1
II.
Applicable Law
A motion to dismiss on abstention grounds fits
best under Federal Rule of Civil Procedure 12(b)(1).
Nadzhafaliyev v. Hardy, No. 17 C 4469, 2019 WL
4138996 at *3 (N.D. Ill. Aug. 29, 2019). The Court accepts as true the well-pleaded factual allegations,
drawing all reasonable inferences in the plaintiffs’ favor. Scott Air Force Base, 548 F.3d at 519.
III.
Analysis
Defendants argue this case should be dismissed
under the Younger abstention doctrine because Indiana trial courts are able to address Plaintiffs’ constitutional claims in the pending CHINS proceedings. Dkt.
60 at 18–19. Plaintiffs respond that Younger abstention is improper because this case does not involve the
same subject matter as the CHINS cases and because
it does not fit into any of the three exceptional categories to which the Supreme Court has limited Younger’s
1

Plaintiffs’ unopposed motion for leave to file a surreply is
GRANTED. Dkt. [80].

15a
application. Dkt. 67 at 26–27 (relying on Sprint
Comms., Inc. v. Jacobs, 571 U.S. 69, 78 (2013)).
A. Younger Abstention
A federal court’s obligation to hear and decide a
case within its jurisdiction is “virtually unflagging.”
Sprint, 571 U.S. at 78. An exception to this rule, the
Younger abstention doctrine, requires federal courts to
abstain from deciding cases when the federal claims
can be raised in state court and “the prospect of undue
interference with state proceedings counsels against
federal relief.” Sprint, 571 U.S. at 78; see Younger v.
Harris, 401 U.S. 37 (1971). Abstention in these circumstances is required by comity and federalism;
specifically, “a proper respect for state functions, a
recognition of the fact that the entire country is made
up of a Union of separate state governments, and a
continuance of the belief that the National Government will fare best if the States and their institutions
are left free to perform their separate functions in their
separate ways.” New Orleans Pub. Sew., Inc. v. Council
of New Orleans, 491 U.S. 350, 364 (1989) (“NOPSI”)
(quoting Younger, 401 U.S. at 44).
Because Younger abstention is an exception to
the rule that a federal court must hear and decide
cases within its jurisdiction, the doctrine applies in
only three “exceptional” categories. Sprint, 571 U.S.
at 78; see NOPSI, 491 U.S. at 368. They are when
federal involvement would intrude into (1) state criminal prosecutions, (2) quasi-criminal civil enforcement

16a
proceedings, or (3) “civil proceedings involving certain
orders . . . uniquely in furtherance of the state courts’
ability to perform their judicial functions.” Id. Defendants argue that this case falls into Sprint’s second
and third categories, and that abstention is appropriate under both pre- and post-Sprint case law. Dkt. 77
at 6–9. Plaintiffs respond that Sprint “narrowed the
scope of Younger abstention,” and that this case does
not fall into any of Sprint’s categories. Dkt. 80-1 at 2;
dkt. 67 at 27.
Sprint is not the narrowing that Plaintiffs imagine. In Sprint, the Supreme Court merely held that
Younger abstention is limited to the categories identified by the Court in NOPSI thirty years ago—it did not
remove or narrow those categories. Sprint, 571 U.S. at
78 (holding that “in accord with” prior cases, the three
categories “define Younger’s scope”); NOPSI, 491 U.S.
at 368 (identifying the three exceptional categories “after surveying prior decisions”).
B. Plaintiffs’ CHINS proceedings are state
quasi-criminal enforcement proceedings.
The exercise of federal jurisdiction here would intrude into state quasi-criminal civil enforcement proceedings. The Supreme Court and Seventh Circuit
have consistently found that Younger abstention applies in similar quasi-criminal contexts. In Moore v.
Sims, for example, parents brought a federal constitutional challenge to Texas’s child-custody framework
after one of their children was taken into custody

17a
because of an abuse report. 442 U.S. 415, 419–21
(1979). The Supreme Court held that because of the
important state interests and quasi-criminal context of
the pending state-court custody proceedings, Younger
abstention applied. Id. at 423. In Sprint, the Court
cited Moore to explain that a “state-initiated proceeding to gain custody of children allegedly abused by
their parents” is a quasi-criminal proceeding that triggers Younger abstention. 571 U.S. at 79.
Plaintiffs argue that the state CHINS proceedings
are not quasi-criminal because the purpose is not to
punish parents, and parents cannot be incarcerated,
put on probation, or even fined. Dkt. 67 at 27. But in
Brunken v. Lance, the Seventh Circuit reversed a district court’s decision not to abstain under Younger from
a federal challenge to a pending Illinois child-custody
case. 807 F.2d 1325, 1330–31 (7th Cir. 1986). The court
emphasized the similarities to a criminal proceeding,
including that the state is heavily involved in the proceedings and prosecutes “its very strong interest in the
health and welfare of the child.” Id. These same interests are at the core of Indiana’s child-welfare system.
As the Indiana Supreme Court recently emphasized,
nothing less than the “fundamental right” of parents to
raise their children is at stake. In re Ma.H., 134 N.E.3d
41, 44–46 (Ind. 2019). Moreover, CHINS and termination of parental rights proceedings “can implicate a
parent in criminal activity,” so trial courts presiding
over those cases “must remain conscientious of possible criminal implications and safeguard a parent’s constitutional rights.” Id.

18a
C. Addressing the constitutional issue
here would intrude on Indiana’s childwelfare framework.
As the Seventh Circuit recently said, important
state interests require “federal court[s] [to] abstain”
under Younger “from resolving isolated legal issues
that might matter” to pending state child-welfare or
child-custody proceedings. Milchtein v. Chisholm, 880
F.3d 895, 898–99 (7th Cir. 2018). Because of its compelling interest in child health and welfare, Brunken, 807
F.2d at 1330, the state must “encourage and support
the integrity and stability of an existing family environment and relationship” throughout a CHINS proceeding, In re KD., 962 N.E.2d 1249, 1258 (Ind. 2012).
The constitutional issue here—whether children in
CHINS proceedings are entitled to counsel—is therefore one piece of a much larger and integrated childwelfare framework. The cost of a federal court’s interference in that state system “militate[s] in favor of abstention.” Moore, 442 U.S. at 427.
Plaintiffs nevertheless argue this case does not
involve the same subject matter as the pending CHINS
proceedings because the appointment of counsel is a
procedural issue that does not go to the outcome or
merits of the CHINS proceedings. Dkt. 67 at 26. But
the entire premise of Plaintiffs’ case is that not having counsel in a CHINS proceeding is what caused
their loss of liberty interests. See dkt. 40 ¶ 1; dkt. 67 at
14–15. Moreover, as explained above, even “isolated legal issues” that might matter to pending state childwelfare or child-custody proceedings trigger Younger.

19a
Milchtein, 880 F.3d at 898–99. Similarly, the Supreme
Court’s decision in Kowalski v. Tesmer teaches that
“ancillary challenges” implicate Younger abstention.
543 U.S. 125 (2004). Kowalski involved a federal challenge to a Michigan law that allowed state courts not
to appoint counsel for a criminal appeal after a guilty
plea. Id. at 127. The Supreme Court said that the criminal-defendant plaintiffs could not circumvent Younger
by raising the “ancillary” right-to-counsel issue in federal court. Id. at 133. Since the appointment of counsel
implicated Younger in Kowalski, it does here too.
D. Plaintiffs have not shown they cannot
raise their federal claims in their statecourt CHINS proceedings.
For the reasons above, Younger abstention is appropriate here so long as Plaintiffs had the opportunity
to present their federal claims in the state proceedings.
See Moore, 442 U.S. at 425 (citing Juidice v. Vail, 430
U.S. 327, 337 (1977)). Plaintiffs argue that they did not
have that opportunity, dkt. 67 at 27 n.2, but they fail to
carry their burden of proving it, see Pennzoil Co. v. Texaco, Inc., 481 U.S. 1, 14 (1987) (citing Moore, 442 U.S.
at 432). Plaintiffs do not identify any legal barrier to
raising their claims in their CHINS proceedings. See
Moore, 442 U.S. at 426 (“Certainly, abstention is appropriate unless state law clearly bars the interposition of
the constitutional claims.”). And they have not alleged
or argued that they tried to raise these claims there.
See Pennzoil, 481 U.S. at 15 (“[W]hen a litigant has not
attempted to present his federal claims in related

20a
state-court proceedings, a federal court should assume
that state procedures will afford an adequate remedy,
in the absence of unambiguous authority to the contrary.”). The Southern District of Texas case cited by
Plaintiffs, M.D. v. Perry, 799 F. Supp. 2d 712, 721 (S.D.
Tex. 2011), does not relieve Plaintiffs of their obligation
to try to raise their constitutional claim in the CHINS
proceeding or explain why they cannot do so. In M.D.,
the court found that the “limited state court review
hearings” that Texas provided in foster-care cases did
not provide an adequate opportunity to raise complex
federal constitutional challenges. Id. Plaintiffs do not
argue that Indiana’s CHINS proceedings are similarly
limited.
In sum, Plaintiffs have not shown that they cannot
raise their federal constitutional challenges in their
pending CHINS cases. Exercising federal jurisdiction
over this case therefore presents the same danger as
in Kowalski: “unnecessary conflict between the federal and state courts” and “confusion among [Indiana]
judges attempting to implement . . . conflicting commands.” 543 U.S. at 133 n.4. The better path—since
Indiana courts are competent to adjudicate these federal constitutional claims—is to leave the integrated
CHINS framework to the Indiana courts. Moore, 442
U.S. at 430; Milchtein, 880 F.3d at 899.2 Plaintiffs
2

In a footnote in their response brief and in one sentence in
their surreply, Plaintiffs hint that this Court should not abstain
under Younger because they are seeking class relief. Dkt. 67 at 27
n.2; dkt. 80-1 at 3. But underdeveloped arguments are waived.
See Dexia Credit Local v. Rogan, 629 F.3d 612, 624–25 (7th Cir.
2010). Notwithstanding waiver, Plaintiffs cite only M.D., 799

21a
should therefore raise their claim in state court and, if
necessary, follow the state appellate process. See Simpson v. Rowan, 73 F.3d 134, 138 (7th Cir. 1995) (citing
NOPSI, 491 U.S. at 369; Huffman v. Pursue, Ltd., 420
U.S. 592, 608 (1975)).
Therefore, this case is DISMISSED without
prejudice. See Moses v. Kenosha County, 826 F.2d 708,
710 (7th Cir. 1987) (Younger abstention “require[s] the
district court to dismiss all claims without prejudice to
the plaintiffs right to raise the same contentions in a
state tribunal”).3
IV.
Conclusion
Defendants’ motion to dismiss is GRANTED.
Dkt. [59]. Plaintiffs’ motion for class certification is

F. Supp. 2d 712, in support. There, the Southern District of
Texas declined to abstain under Younger in part because Plaintiffs sought “broad-based,” “overarching systemic,” and “wideranging” class relief. Id. at 721–22; see M.D. v. Perry, No. C-1184, 2011 WL 2173673 (S.D. Tex. June 2, 2011) (certifying the
class). This case is different because no class has been certified
and Plaintiffs pursue one discrete constitutional theory—that the
Fourteenth Amendment provides them a right to counsel in their
CHINS proceedings—without explaining why that position cannot be sufficiently addressed by the state courts presiding over
the CHINS proceedings.
3
Because Younger abstention applies, the Court does not
consider Defendants’ other arguments for dismissal, including
that Plaintiffs lack standing. See dkt. 60; Tenet v. Doe, 544 U.S.
1, 6 n.4 (2005) (recognizing that Younger abstention “may be resolved before addressing jurisdiction”).

22a
DENIED as moot. Dkt. [43]. This case is DISMISSED; final judgment will issue in a separate
entry.
SO ORDERED.
Date: 3/3/2020
/s/ James Patrick Hanlon
James Patrick Hanlon
United States District Judge
Southern District of Indiana
Distribution:
Annavieve C. Conklin
DELANEY 85 DELANEY LLC
ACONKLIN@DELANEYLAW.NET
Kathleen Ann DeLaney
DELANEY 85 DELANEY LLC
kathleen@delaneylaw.net
Robert C. Fellmeth
CHILDREN’S ADVOCACY INSTITUTE
cpil@sandiego.edu
Jefferson S. Garn
INDIANA ATTORNEY GENERAL
Jefferson.Garn@atg.in.gov
Stephen D. Keane
MORRISON 85 FOERSTER LLP
skeane@mofo.com
Stephanie V. McGowan
FROST BROWN TODD LLC (Indianapolis)
smcgowan@fbtlaw.com

23a
Diana Lynn Moers
INDIANA ATTORNEY GENERAL
diana.moers@atg.in.gov
Anthony W. Overholt
FROST BROWN TODD LLC (Indianapolis)
aoverholt@fbtlaw.com
Andrea Elizabeth Rahman
OFFICE OF THE INDIANA ATTORNEY GENERAL
andrea.rahman@atg.in.gov
Robert Austin Rowlett
INDIANA ATTORNEY GENERAL
Robert.Rowlett@atg.in.gov
Mark C. Zebrowski
MORRISON 85 FOERSTER LLP
mzebrowski@mofo.com

24a
APPENDIX C
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
April 26, 2021
Before
FRANK H. EASTERBROOK, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
DIANE P. WOOD, Circuit Judge
No. 20-1525
NICOLE K., by next
friend LINDA R., et al.,
Plaintiffs-Appellants,
v.
TERRY J. STIGDON, Director
of the Indiana Department
of Child Services, et al.,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)

Appeal from the
United States District
Court for the Southern
District of Indiana,
Indianapolis Division.
No. 1:19-cv-01521JPH-MJD
James Patrick
Hanlon, Judge.

Order
(Filed Apr. 26, 2021)
Plaintiffs-Appellants filed a petition for rehearing
and rehearing en banc on April 9, 2021. No judge in
regular active service has requested a vote on the petition for rehearing en banc, and all of the judges on the
panel have voted to deny rehearing. The petition for
rehearing is therefore DENIED.

25a
APPENDIX D
U.S. CONST. amend. XIV
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
Section 2.
Representatives shall be apportioned among the several states according to their respective numbers,
counting the whole number of persons in each state,
excluding Indians not taxed. But when the right to vote
at any election for the choice of electors for President
and Vice President of the United States, Representatives in Congress, the executive and judicial officers of
a state, or the members of the legislature thereof, is
denied to any of the male inhabitants of such state, being twenty-one years of age, and citizens of the United
States, or in any way abridged, except for participation
in rebellion, or other crime, the basis of representation
therein shall be reduced in the proportion which the
number of such male citizens shall bear to the whole
number of male citizens twenty-one years of age in
such state.

26a
Section 3.
No person shall be a Senator or Representative in Congress, or elector of President and Vice President, or
hold any office, civil or military, under the United
States, or under any state, who, having previously
taken an oath, as a member of Congress, or as an officer of the United States, or as a member of any state
legislature, or as an executive or judicial officer of any
state, to support the Constitution of the United States,
shall have engaged in insurrection or rebellion against
the same, or given aid or comfort to the enemies
thereof. But Congress may by a vote of two-thirds of
each House, remove such disability.
Section 4.
The validity of the public debt of the United States, authorized by law, including debts incurred for payment
of pensions and bounties for services in suppressing insurrection or rebellion, shall not be questioned. But
neither the United States nor any state shall assume
or pay any debt or obligation incurred in aid of insurrection or rebellion against the United States, or any
claim for the loss or emancipation of any slave; but all
such debts, obligations and claims shall be held illegal
and void.
Section 5.
The Congress shall have power to enforce, by appropriate legislation, the provisions of this article.

27a
Ind. Code § 31-32-2-1 “Rights of child”
Sec. 1. Except when a child may be excluded from a
hearing under IC 31-32-6, a child is entitled to:
(1)

cross-examine witnesses;

(2) obtain witnesses or tangible evidence by compulsory process; and
(3)

introduce evidence on the child’s own behalf.

Ind. Code § 31-32-2-2 “Additional rights of child
charged with delinquent act”
Sec. 2. In addition to the rights described in section 1
of this chapter, a child charged with a delinquent act is
also entitled to:
(1)

be represented by counsel under IC 31-32-4;

(2)

refrain from testifying against the child; and

(3)

confront witnesses.

Ind. Code § 31-32-2-5 “Parent’s right to representation by counsel”
Sec. 5. A parent is entitled to representation by counsel
in proceedings to terminate the parent-child relationship.
Ind. Code § 31-32-4-1 “Persons entitled to representation by counsel”
Sec. 1. The following persons are entitled to be represented by counsel:
(1) A child charged with a delinquent act, as provided by IC 31-32-2-2.

28a
(2) A parent, in a proceeding to terminate the
parent-child relationship, as provided by IC 31-322-5.
(3)

Any other person designated by law.

Ind. Code § 31-32-4-2 “Court appointment of
counsel to represent child”
Sec. 2. (a) If:
(1) a child alleged to be a delinquent child does
not have an attorney who may represent the child
without a conflict of interest; and
(2) the child has not lawfully waived the child’s
right to counsel under IC 31-32-5 (or IC 31-6-7-3
before its repeal);
the juvenile court shall appoint counsel for the child at
the detention hearing or at the initial hearing, whichever occurs first, or at any earlier time.
(b) The court may appoint counsel to represent
any child in any other proceeding.

